9 A _ c-y <^^

No.

>6 V

8 v

a
i
zj

■ \

"7r IV F A "

♦ ;

\ V--'

..........\J
Supreme Court, U.S,
FILED

MAi? 1 9 2021
SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

OCTOBER TERM, 2020

JON TERRANCE WINZER, PETITIONER
VERSUS
STATE OF LOUISIANA, RESPONDENT(S)

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT
5th CIRCUIT COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE
PETITION FOR WRIT OF CERTIORARI
JON TERRANCE WINZER
(Your Name!
17544 Tunica Trace. Lonisiana State Penitentiary
(Address)
Angola. La. 70712
City. State. Zip Code)
N/A
(Phone Number)

QUESTION PRESENTED FOR REVIEW
Mr. Winzer alleges that he was property before the 5th Circuit Court ofAppeal with his Application for a
Certificate of Appealability, thus denying review of his 1401 amendment claim of actual innocence.
QUESTION 1.
Did the Fifth Circuit Court of Appeal err in allowing the Western District Court to deny his
28U.S.C. Sec. 2254 petition as being improperly filed?
QUESTION 2.
Did the Fifth Circuit Court of Appeal err in allowing the Western District Court to deny his 28
U.S.C. Sec. 2254 petition as being improperly filed without considering the compelling evidence of Mr.
Winzerts innocence?

i

LIST OF PARTIES:
[ X j All parties appear in the Caption of the case on the cover page
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose jucfement is the subject of this petition is as follows:

TABLE OF CONTENTS
QUESTION PRESENTED..

]

TABLE OF CONTENTS....

.11

TABLE OF AUTHORITIES

lit

OPINION BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND FEDERAL PROVISION INVOLVED

3

STATEMENT OF THE CASE

7

REASONS FOR GRANTING THE WRIT

8

I. THE WESTERN DISTRICT OF LOUISIANA AND THE FIFTH CIRCUIT COURT OF
APPEALS MISAPPLICATION OF 28 U.S.C. 2254(d)(1) & (d)(2), WARRANTS THIS
8

COURTS ATTENTION.........................................................................................................

II. THE WESTERN DISTRICT OF LOUISIANA AND THE FIFTH CIRCUIT COURT OF
APPEALS MISAPPLICATION OF 28 U.S.C. 2254(d)(1) & (d)(2)IN LIGHT OF THE
COMPELLING EVIDENCE OF MR. WINZER'S INNOCENCE WARRANTS THIS
COURTS ATTENTION.

12

IE. THE DECISION OF THE 5* CIRCUIT IS IN CONFLICT WITH THE DECISIONS OF
THE SUPREME COURT OF THE UNITED STATES

15

16

CONCLUSION

INDEX OF APPENDICES

APPENDIX “A”

DENIAL OF COA BY THE FIFTH CIRCUIT COURT OF APPEALS

APPENDIX “B”

DENIAL OF THE FEDERAL DISTRICT COURT WESTERN DISTRICT

APPENDIX “C

STATE V WINZER 2014-2373 (LA. 4/22/16)

APPENDIX “D”

STATE V WINZER. 151 SO 3D 135
ii

TABLE OF AUTHORITIES
FEDERALCASES:
Spotvilie v. Cain, 149 F.3d 374
Pace v. DiGuglielmo, 544 U.S. 408.
Smith v. Murray, 477 US 527, 91 L Ed 2d 434,106 S. a. 2661
Smith v. Ward, 209 F.3d 383
Villegas v. Johnson, 184 F.3d 467
Murray v Carrier, 477 US 495, 91 L Ed 2d 397,106, S. Ct. 2639
Kuhlman v Wilson, 477 US 436, 91 L Ed 2d 364,106 S. Ct. 2616
Artuz v. Bennet, 531 U.S. 4
Smith v. Murray, 477 US 527, 91 L Ed 2d 434, 106 S. Ct. 2661
Schhip v. Delo, 513 U.S. 298
Herrera v. Collins, 506 US 390
Hancock v. Davis 906 F.3d 387
McQuiggins v. Perkins, 133 S.Ct. 1924
Martinez v. Ryan, 132 S.Ct 1309
United States v. Lombardo, 241 US 73
CONSTITUTIONAL PROVISIONS
Fourteenth Am endm ent
FEDERAL STATUTES
28 U.S.C. § 1257
28 U.S.C Sec. 2244(d)(1)
28 U.S.C. 2254(d)(1)
28 U.S.C. §2254(d)(2)
3006A of title 18.
LOUISIANA STATE CASE
State v. Wizner, 2018-0203(La 1/28/19), 262 So. 3D 891

Hi

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts;
Hie opinion of the United States court of appeals appear at Appendix “A”_ to the petition
and is
[X] reported at; or, 19-30716
[ ] has been designated for publication but is not yet reported; or.
[X] is unpublished
Hie opinion of the United States district court appears at Appendix ”B”to the petition and is
[ ] reported at Civil Action 19-0658. or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
Hie opinion of the highest state court to review the merits appears at Appendix _”C”_to the
petition and is
[X] reported at State v Winzer 2014-2373 (La. 4/22/16) ; or, Louisiana Supreme Court do
not have
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Hie opinion of the Second Circuit Court of Appeals appears at Appendix jD^to
the petition and is
[X] reported at, State v. Jon Terranc Winzer 151 So 3d 135 or,
[ ] has been designated for publication but is not yet reported or,
[ ] is unpublished.

1

JURISDICTION
[ X ] For cases from federal courts:
The date on which the United States Court ofAppeals decided my case
was 12/22/2020
[ X_] No petition for rehearing was timely filed in my case.
[ N/A ] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date:
, and a copy of the order denying rehearing appears
at Appendix__
[N/A ] An extension of time to file the petition for writ of certiorari was granted to and
including
(date) on
(date) in Application No.
A

The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

[ ] For cases from state court :
{N/A ] A timely petition for rehea-ing was thereafter denied on the following date:
________________, and a copy of the order denying rehearing appears at Appendix________.
[N/A ] An extension of time to file the petition for writ of certiorari was granted to and
(date) on
(date) in Application No.
including
A

Hie jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

C.QNSTI TUTIONAL AND FEDERAL PROVISIONS INVOLVED

U.S. CONT., AMEND. XIV
Section 1. All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States aid of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law, nor deny to any person within its jurisdiction the equal protection of the laws.

28U.S.C. §2254
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an
application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgm ent
of a State court only on the ground that he is in custody in violation of the Constitution or laws or
treaties of die United States.
(b)(1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to he
judgment of a State court shall not be granted unless it appears that(A) the applicant has exhausted the remedies available in the courts of the St ate; or
(B)(i) there is an absence of available State corrective process; or
(Ii) circumstances exist that render such a process ineffective to protect the rights of applicant.

3.

(2) An application for a writ of habeas corpus may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirements or be estopped from
reliance upon the requirement unless the State, through counsel, expressly waives the
requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of
the State, within the meaning of this section, if he has the right under the law of the State to raise,
by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of facts in light ofthe

evidence presented in State court proceeding.
(e)(1) In a proceeding instituted by an application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court, a determination of a factual issue made by a
State court shall be presumed to be correct. The applicant shall have the burden of rebutting the
presumption of correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual basis of a. claim I State court proceedings, the
4.

court shall not hold an evidentiary hearing on the claim unless the applicant shows that(A) the claim relies on—
(i) a new rale of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the exercise of
due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing
evidence that but for constitutional error, no reasonable fact finder would have found the
applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State court
proceeding to support the State court's determination of a factual issue made therein, the
applicant, if able, shall produce the part of the record pertinent to a determination of the
sufficiency of the evidence to support: such determination. If the applicant, because of indigency
or other reason is unable to produce such part of the record, then the State shall produce such
part of the record aid the Federal court shall direct the State to do so by order directed to an
appropriate State official. If the State cannot provide such pertinent part of the record, then the
court shall determine under the existing facts and circumstances what weight shall be given to
the State court’s factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such court to be
a true and correct copy of a finding, judicial opinion, or other reliable written indicia, showing
5.

such a factual determination by the State court shall be admissible in the Federal court
proceeding.
(h) Except as provided in section 408 of the Controlled Substances Act, in all proceedings
brought under this section, and any subsequent proceedings on review, the court may appoint
counsel fro an applicant who is or becomes financially unable to afford counsel, except as
provided by a rule promulgated by the Supreme Court pursuant to statutory authority.
Appointment of counsel under' this section shall be governed by section 3006A oftitle 18.
(i) The ineffectiveness or incompetence or incompetence of counsel during Federal or State
collateral post-conviction proceedings shall not be a ground for relief in a proceeding arising
under section 2254. (It is Mr. Winzer understanding that this law has been changed pursuant to
the holdings of Martinez v. Ryan, 132 S.Ct 1309.)

6.

STATEMENT OF THE CASE
On July 12,2017, Mr. Winzer filed his post conviction application into the District Court
The

Judicial District Court denied Mr. Winzer's application On July 31, 2017. On August 30,

2017. Mr. Winzer filed his writ application into the Louisiana Court of Appeals, Second Circuit.
Mr. Winzer's writ, application was subsequently denied on November 15, 2017 State v. Wt&ier,
2018-0203(La. 1/28/19), 262 So. 3D 891 by the Louisiana. Court of Appeals, Second Circuit
Following this denial, Mr. Winzer, on December 12, 2017, filed his Supervisory writ into the
Louisiana Supreme Court. The Louisiana Supreme Court denied certiorari on January 28,2019.
On January 30, 2019, Mr. Winzer filed a shell petition into the Western District Court of
Louisiana, requesting an extension of time/stay on a 28 U.S. C. Sec. 2254 application.
It must be explicitly stated that the denial in the above cases were never considered
on their merits but rather were denied on the procedural grounds of being untimely. Mr. Winzer
has provided the relevant courts with dated and signed Offender Indigent/Legal Mail forms
proving his timeliness in the State court, proceedings.
Mr. Winzer also provided the Western District Court and Fifth Circuit Court of Appeals
with compelling newly discovered evidence of his actual innocence to the crimes for which he
was charged. Newly discovered evidence which was presented well within statutory limitations.

7.

REASONS FOR GRANTING THE WRIT
I. THE WESTERN DISTRICT OF LOUISIANA
AND THE FIFTH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF 28 U.S.C. 2254(d)(1) A (d)(2),
WARRANTS THIS COURT'S ATTENTION
The Federal Weston District Court of Louisiana, and subsequently the United States Fifth
Circuit Court of Appeal, failed to properly apply the text of 28 U.S.C Sec. 2244(d)(1) to Mr.
Winzer's pleadings. Mr. Winzer's conviction became final July 21, 2016. Mr. Winzer then timely
filed a post-conviction application on July 12,2017. Thus providing 9 days to properly file his
Habeas Corpus under 28 U.S.C. Sec. 2244 (dXl) after die Louisiana Supreme Court denied
Petitioner’s Supervisory Writ on January 28, 2019. Mr. Winzer then on his own, without
assistance from offender counsel, filled out a 28 U.S.C. Sec. 2254 application on January 30,
2019, addressed to die Western District Court alleging claims and asking this petition be stayed
until he filed a Memorandum of Law. (Mr. Winzer termed this application a “shell petition)
The Supreme Court held in Artuz v. Sennet, 531 U.S. 4 that “An application is ‘Tiled,” as
that term is commonly understood, when it is delivered to, and accepted by, the appropriate court
officer for placement into the official tecord. See, e.g.. United States v. Lombardo, 241 US 73,
76 (1916)...” and “that an application is “properly filed” when its delivery and acceptance
are completed in compliance with the applicable laws and rales goveinin g filings. “Mr.
Winzer followed these applicable laws and rules albeit with the legal understanding of the typical
pro-se litigant in a form which the Court may deem irregular but still considered proper under
prevailing case law and statutory regulations. Mr. Winzer is a pro-se litigant. Therefore his
pleadings to the various courts are considered filed the day he delivers them to the prison
8.

authorities for mailing. Spotville v. Cain, 149 F.3d 374,378 (5th Cir. 1998) (per curiam). The
Fifth Circuit held that “the habeas cotpus petition of apm se prisoner litigant is filed for
purposes of determining the applicability of the AEDPA at the time the petitioner tenders the
petition to prison officials formatting,” and not, as the district court erroneously concluded, on
the date the petitioner pays the filing fee following denial of a request to proceed in forma
pauperis. The Federal Western District Court and the Fifth Circuit Court ofAppeals nevertheless
failed to consider petitioner's 2254 application as properly filed.
The Supreme Court has further held: “A litigant seeking equitable tolling bears the
burden of establishing two elements: (1) that he has been pursuing his rights diligently, and (2)
that some extraordinary circumstance stood in his way. Pace v. DiGuglidmo, 544 U.S. 408. The
Report and Recommendation of Magistrate Judge Karen L. Hayes, (See Appendix B, page 8) in a
seemingly non chalant manner gives Mr. Winzer's standing to assert that foe doctrine of equitable
tolling be applied to the facts of his case. Upon inspection of foe facts of this case by the
Magistrate Judge, she concluded that either three unusual/extraordinary instances occurred. One
of those unusual/extraordinary circumstances, Judge Hays delineated was that Mr. Winzer mailed
the “shell petition but the motion/petition was misplaced. Mr. Winzer presented evidence of his
pleadings being misplaced and resent while in state court. So as an act of diligence in the
Western District Court, Mr. Winzer sent a letter requesting a status check on the 28 U.S.C. Sec.
2254 application requesting an extension of time to file his Memorandum of Law(shell petition)
on April 25, 2019-less than 90 days after filing.
In support of Mr. Winzer's assertion that he did in fact mail his 2254 application/shell
petition to the district court on January 30, 2019, Mr. Winzer presented to the Western District

9.

Court a copy of an “Offender Withdrawal Request” stating that 1.00 was withdrawn from his
prison account on January 25, 2019(Actual date was January 28, 2019, the 25 is a typographical
error.) ostensibly to mail off the 2254 application/shell petition. This is the proper procedure put
in place by prison officials concerning the mailing of legal mail. It should also be noted that there
is practically no other reason a prisoner will find it necessary to request a withdrawal form in the
amount of a dollar from his prison account except for postage. Tims from the Magistrate Judge's
Report and Recommendation alone, Mr. Winzer can establish he indeed meets the requirements
set forth in Pace as well as Spotvilie.
The case at hand practically mirrors an over 20 year old holding of the Fifth Circuit Court
ofAppeals. In Smith v. Ward, 209 F.3d 383, 385 (5th Cir. 2000), the Fifth Circuit panel
reversed the district court’s dismissal of petitioner’s §2254 petition as untimely, finding that
petitioner’s state port-conviction application, though dismissed as untimely under state law, was
nevertheless “properly filed” within the meaning of §2244(d)(2). Relying on its decision in
Villegas v. Johnson, 184 F.3d46? (5th Cir. 1999), the court reasoned that although the Louisiana
Im under which the state St. of Lims — "Properly filed" 323 - CTA application wras dismissed
appears “[o]n its face” to be “a time-based procedural filing requirement,’’that law, “like the
Texas successive writ statute at issue in VUIegas, does not impose an absolute bar to filing;
instead, it limits the state court’s ability to grant relief.” Under the Louisiana law, “courts will
accept a prisoner’s application for filing and review it to determine whether any of the statutory
exceptions to untimely filing are applicable.” Finding this procedure “virtually identical” to the
successive application procedure at issue in VUIegas, the court concluded that petitioner’s “state
application, although ultimately determined by the state court to be time-barred, nevertheless was

10.

‘properly filed’ within the meaning of §2244(d)(2).”
Although the minor somewhat blurs when delving into the details of Smith, the essence
as well as the actual holdings are applicable to Mr. Winzer's case. Mr. Winzer’s claims should not
be deniedfor procedural reasons and denied a review on the merits even if as the Courts assert he
was time-barred in the state court-an assertion which Mr. Winzer categorically denies.
The determination by multiple state and federal courts concerning the type of review and
or reading a pro-se petitioner's brief should receive are numerous. At no time should it be
considered Mr. Wizner abandoned the issue of timeliness. For in each pleading presented to the
courts at question, Mr. Winzer approached die issue of timeliness. Therefore the Court of
Appeals assertion that Mr. Winzer somehow abandoned his issue regarding the timeliness of his
petition is erroneous.
This Honorable Court should grant certiorari and remand Mr. Wizner's Application for
Certificate ofAppealability back to the 5th Circuit Court of Appeals for a de novo review of the
merits in his case.

11.

II. THE WESTERN DISTRICT OF LOUISIANA
AND THE FIFTH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF 28 U.S.C. 2254(d)(1) & (d)(2)
IN LIGHT OF THE COMPELLING
EVIDENCE OF MR. WINZER'S INNOCENCE
WARRANTS THIS COURT ATTENTION
“The societal interests in finality, comity, and conservation of scarce judicial resources
dictate that a habeas court may not ordinarily reach the merits of successive or abusive claims,
absent a showing of cause and prejudice. However, since habeas corpus is, at its core, an
equitable remedy, a court must adjudicate even successive claims when required to do so by the
ends ofjustice. Thus in atrio of cases, this Court firmly established an exception for fundamental
miscarriages of justice. Carrier,; 477 US, at 495, 91 L Ed 2d 397, 106, S. Ct. 2639; Kuhlman v
Wilson, All US 436, 91 L Ed 2d 364, 106 S. Ct. 2616; SmMh v. Murray, All US 527, 91 L Ed
2d 434, 106 S. Ct. 2661. To ensure that the fundamental miscarriage ofjustice exception would
remain “rare?’ and be applied only in the “extraordinary case,” while at the same time ensuring
that relief would be extended to those who are truly deserving, the Court has explicitly tied tire
exception to the petitioner's innocence. Carrier and Kuhlman also expressed the standard of
proof that should govern consideration of such claims: Die petitioner must show that the
constitutional error “probably” resulted in the conviction of one who was actually innocent.”
Sdtlup v. Dele, 513 U.S. 298
In a few, short and concise words, Sdtlup, eloquently gives voice to the pleas ofjustice
emitting from Mr. Winzer's 2254 habeas application from the Western District. Court and ensuing
application for a certificate of appealability from the Fifth Circuit Court of Appeals. Mr. Winzer's
case presents this Court with an opportunity to address its declination to resolve the status of the
12.

hypothetical freestanding innocence claim put forth in Herrera v. Collins, 506 US 390. As well
as to now explicitly define what exactly constitutes “new reliable evidence” under Sdilup and on
the 5fe Circuit Court ofAppeals' reluctance to weigh in on the circuit split concerning whether the
new evidence must be newly discovered, previously unavailable evidence, or, instead evidence
that was available but not presented at trial. Hancock v. Davis 906 f.3d 387, 389.
Mr. Winzer presented not one but two affidavits from the professed shooter in this case;
his at the time 16 year old younger brother, Lonnie Shelton. Mr. Winzer's younger brother not
only accepted full responsibility for the crime Mr. Winzer was accused of but also included a
statement depicting whose influence he as a juvenile was under when he shot Mr. Johnson-the
victim in this case. See p.17 of the Magistrate Judge's Report and Recommendation.
In arguendo, beginning with the possibility Mr. Wizner's 2254 application/shell petition
was filed untimely, this Court must take into consideration the confession of Mr. Wizner's brother
which was presented in accordance with statutory provisions concerning newly discovered
evidence. And further, in Carrier, the Court stated that procedural default would be excused,
“even in the absence of cause when 'a constitutional violation has probably resulted in the
conviction of one who is actually innocence.” See also MoQuiggins v. Perkins, 133 S.Ct.
1924, 1935 (To invoke the miscarriage ofjustice exception to AEDPA's statute of limitations, we
repeat, a petitioner taust show that it is more likely than not that no reasonable juror would have
convicted him in Hie light of the new evidence.” (quoting Sdilup v. Del a, 513 U.S. 298.
Probably, more likely than not, these are terms that apply if even an inkling of a doubt
exists as to the innocence of a defendant. These standards are not meant to be insunn ountable
obstacles. Or even obstacles that cm be ignored on wrongly or rightly applied procedural bars.

13.

“A federal habeas court faced with an actual-innocence gateway claim, should count
unjustifiable[as well as justifiable] delay on a habeas petitioner's part, not as an absolute barrier
to relief, but as a factor in determining whether actual innocence has been reliably shown”
McQuiggins. A gateway claim. Information that when presented unlocks what was once viewed
as a barrier but that is now instead the beginning of a path that points into a direction which was
before unknown to the fact-finder. Tire affidavits from the confessed shooter, presented by Mr.
Winzer, are the quintessential example of the requisite information a reasonable jura* would
desire in order to aid him/her with their determination of what constitutes reasonable doubt as to
a person they are tasked with in determining their guilt or innocence to offenses as serious as the
ones Mr. Winzer is accused of. Mr. Winzer, unlike countless others similarly situated has the
information necessary to prove his innocence.
Mr. Winzer's brother stated clearly that Mr. Winzer “didn’t know what was going to
happen”. That “I Lonnele Jamal Shelton did shoot and kill Ramon Johnson..J Lonnelle
Jamal Shelton, stated Johnson is still moving and shot him[Ramon Johnson] two more
times in the face. Mr. Winzer's brother even stated that Mr. Winzer took no part, in the robbery of
Mr. Johnson either. In fact the only “crime” Mr. Shelton implicates Mi*. Wizner in is being a “big
brother*”. A big brother who instinctively is inclined to, above all things, protect his younger
siblings from others and at times their own selves.
Although sane fault may be attributed to Mr. Winzer, that fault by no means rises to the
level of murder in any degree or iteration. This court must, in the light of this information act to
rectify this manifest injustice.

14.

m. THE DECISION OF THE 5a CIRCUIT
IS IN CONFLICT WITH THE DECISIONS
OF THE SUPREME COURT OF THE UNITED STATES
The United States Supreme Court has consistently clarified rulings concerning the tolling
of time for Section 2254 habeas petitions under the textual language delineated in 28 U.S.C
Section 2244(d)(1) and (d)(2). The United States Supreme Court has also consistently clarified
when and under what circumstances these rules are to be rigidly upheld or even in certain
instances disregarded.
The facts of this case show that the United States 5th Circuit Court of Appeals and the
Federal District courts of Louisiana are still not entirely clear on these Supreme Court holdings.
Evidence of these inaccurate interpretations of clearly established constitutional law have been
presented throughout this Writ of Certiorari for this court to review and once and for all bring the
Louisiana judiciary into compliance with the Federal regulations, laws and statutes they are
tasked with upholding. To avoid rechindancy and ensure Mr. Wizner's petition is read, he re­
directs the court attention to the facts presented above.

15.

CONCLUSION
For these reasons a Writ of Certiorari should issue to review the judgment and opinion of
the Fifth Circuit Court ofAppeals.

Respectfully Submitted

*Mr. Jem Terrance Winze?w493559 pro-se
Camp C Bear 3
Louisiana State Penitentiary
Angola, La 70712
Date:

^

16.

